<html>
<title> - OVERSIGHT OF THE U.S. GEOLOGICAL SURVEY</title>
<body><pre>[Senate Hearing 114-498]
[From the U.S. Government Publishing Office]











                                                        S. Hrg. 114-498

                OVERSIGHT OF THE U.S. GEOLOGICAL SURVEY

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 7, 2016
                               __________







[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]











                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
        
        
        
        
        
        
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

21-972                         WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
BILL CASSIDY, Louisiana              JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
ROB PORTMAN, Ohio                    MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           ELIZABETH WARREN, Massachusetts
SHELLEY MOORE CAPITO, West Virginia
                      Colin Hayes, Staff Director
                Patrick J. McCormick III, Chief Counsel
          Chuck Kleeschulte, Senior Professional Staff Member
                    Annie Hoefler, Legislative Aide
            Angela Becker-Dippman, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
        Melanie Stansbury, Democratic Professional Staff Member
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Cantwell, Hon. Maria, Ranking Member and a U.S. Senator from 
  Washington.....................................................     3

                               WITNESSES

Kimball, Hon. Suzette, Director, U.S. Geological Survey..........     5
Fogels, Edmund, Deputy Commissioner, Alaska Department of Natural 
  Resources......................................................    38
Leahy, Dr. P. Patrick, Executive Director, American Geosciences 
  Institute......................................................    57
McCoy, Dr. Robert, Director, Geophysical Institute, University of 
  Alaska Fairbanks...............................................    79
Vidale, Dr. John, Washington State Seismologist, and Director, 
  Pacific Northwest Seismic Network, University of Washington....    84

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Cantwell, Hon. Maria:
    Opening Statement............................................     3
    Article from The New Yorker dated July 20, 2015 entitled 
      ``The Really Big One''.....................................    13
Fogels, Ed:
    Opening Statement............................................    38
    Written Testimony............................................    41
    Responses to Questions for the Record........................   139
Kimball, Hon. Suzette:
    Opening Statement............................................     5
    Written Testimony............................................     7
    Responses to Questions for the Record........................   104
Leahy, Dr. P. Patrick:
    Opening Statement............................................    57
    Written Testimony............................................    59
McCoy, Dr. Robert:
    Opening Statement............................................    79
    Written Testimony............................................    81
    Responses to Questions for the Record........................   161
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
    Map of GPS Sites in Alaska...................................    97
Vidale, Dr. John:
    Opening Statement............................................    84
    Written Testimony............................................    86

 
                           OVERSIGHT OF THE 
                         U.S. GEOLOGICAL SURVEY

                              ----------                              


                        THURSDAY, APRIL 7, 2016

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:06 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

  OPENING STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM 
                             ALASKA

    The Chairman. Good morning. The Committee will come to 
order.
    We are here this morning to conduct oversight of the U.S. 
Geological Survey (USGS). It has been a long time since our 
Committee has conducted direct oversight of this agency outside 
of the nominations process. I think that there is clearly a 
level of interest. There are a number of important and relevant 
issues for us to explore today.
    Director Kimball, I appreciate you being here. I understand 
you are a little bit under the weather, but you are clearly a 
trooper, ready to rally. We appreciate it, and hopefully this 
hearing will be quick and you can get some rest.
    I am among those who appreciate both the work of the USGS 
and the spirit in which it is typically undertaken. The agency 
is known for being non-partisan and for seeking out concrete, 
scientific evidence. I, for one, appreciate that.
    I think it is good. I think it is refreshing in an agency 
that comes before our Committee that perhaps does not have a 
significant regulatory agenda that is plowing straight ahead. 
It has been really greatly appreciated, the cooperative working 
relationship that we have, and I appreciate your leadership on 
that.
    It is also comforting to know that the Survey is collecting 
and monitoring data that is vital to the safety and the well-
being of the American people. Alaskans, in particular, are 
grateful for the work that USGS does to help us cope with the 
daily threat of volcanic eruptions, earthquakes and other 
natural hazards. People might say, ``Daily threat, Lisa, relax 
a little bit.'' But during my week back home, I was grounded by 
a volcano because the airplanes could not fly. And it was just 
a few days after that that we had a magnitude 6.2 earthquake. 
No damage, but 6.2 gets your attention, although not quite as 
much as the 7.1 that we had a couple months prior to that. But 
yes, we have a lot of stuff going on there, and we appreciate 
the vigilance of USGS.
    I do recognize, again, that we have parts of our country 
here that are active in different ways and the need for real 
time volcano monitoring, the recognition that we have very 
tectonically active areas, certainly in Alaska, as I mentioned. 
So knowing what you do there at the Agency is important.
    Another success story can be found with the Alaska Mapping 
Executive Committee. The AMEC, composed of representatives from 
15 federal and state agencies was formed in 2012 to prioritize 
the collection of high resolution elevation data. This 
initiative has expanded to collect other map layers, providing 
vital data to ensure the safety of our pilots and those wanting 
to explore the Alaska wilderness.
    Director, you were up in Alaska last year when we were 
celebrating the 50 percent mark where we had mapped over 50 
percent of the state. Actually, in fairness, I think we were up 
to 57 percent. But it says something when we have a celebration 
when we hit 50 percent. I noted that at the time we have got a 
ways to go, but hey, we are halfway there and we appreciate 
that. We look forward to working it further.
    While I support many efforts and activities within USGS, I 
also believe that some of its core areas lack attention and 
resources. That is another reason why we are here today, to 
review the agency's priorities.
    Our mineral security is one of them. This will come as no 
surprise to anyone who has followed our Committee, but I remain 
seriously concerned about our growing foreign mineral 
dependence. Last year we imported more than 50 percent of our 
supply of 47 minerals, including 100 percent of 19 of them.
    Even though minerals are more important to our modern 
society than ever before, we are paying less and less attention 
to them. That shows, I think, in the USGS budget where not even 
10 percent goes to the energy and minerals program.
    It shows elsewhere as well. After the USGS reports our 
foreign dependence, it is very difficult to find anyone 
anywhere in the Federal Government who is responsible for doing 
anything to meaningfully reduce it.
    Now going back to mapping, the USGS has used hyperspectral 
imagery to map more than 96 percent of the country of 
Afghanistan. While hyperspectral imagery is used for mineral 
exploration, very little of the U.S. has been mapped with this 
same technology. There is some frustration to hear that USGS 
has conducted surveys on the other side of the world while the 
assessments are still much needed here in this country. I do 
recognize the importance of the Survey's other mission areas, 
but those cannot come at the expense of the Congressionally-
authorized and Congressionally-mandated responsibilities that 
USGS holds.
    So I am glad we are having this hearing. We will have an 
opportunity to highlight areas of success for the Survey, but 
also identify the gaps within the agency that prevent it from 
meeting its original and primary directives.
    Again, Director Kimball, I appreciate you being with us 
before the Committee today and for your leadership there at 
USGS.
    Let's turn to Senator Cantwell for your opening remarks.

               STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Madam Chair, and thank you for 
scheduling this important hearing. Like Alaska, Washington has 
a lot of related issues, so this is a hearing of great 
importance to our state as well.
    I would like to extend a warm welcome to all the witnesses 
today and thank you for being here, Ms. Kimball.
    I also want to say hello to Dr. John Vidale, who is here 
from Washington State. He is the Washington State Seismologist, 
Director of the Pacific Northwest Seismic Network, and 
Professor at the University of Washington. These are people we 
count on all of the time, and we so appreciate them being here.
    It is a great opportunity this morning to talk about the 
importance of the USGS--the premier Earth Science agency--and 
its most respected roles that are so important to us: producing 
the nation's maps, monitoring our rivers, guiding our energy 
and mineral development, supporting the management of public 
lands, and helping us respond to natural disasters such as 
floods, earthquakes, volcanoes and landslides. As the primary 
science agency for the Department of the Interior, they play an 
incredible role in informing decision-making for the Department 
in many of its areas. They also provide technical assistance to 
states, tribes and communities across the country.
    So these partnerships are particularly important in 
informing our decisions at the local level. In many states, the 
USGS is a critical partner, as it is in our state, and I would 
like to take a few minutes just to highlight what that 
partnership means.
    The first area of partnership is to protect the public from 
natural disasters. The USGS is the federal agency responsible 
for monitoring these natural hazards such as volcanoes, 
earthquakes and landslides. Washington, like Alaska, has its 
share of these, and we are so glad that they are an absolutely 
critical partner in monitoring and responding to these hazards.
    As many people know, Mount St. Helens erupted in 1980 and 
was the largest volcanic eruption in U.S. history. In fact, 
Washington State has six high risk volcanoes, including Mount 
Rainier, which is considered one of the nation's most 
dangerous. Since the 1990s the U.S. has partnered with Pierce 
County to operate a lahar warning system to protect the lives 
and property that could be affected in that eruption--and there 
are probably 80,000 people in the path of that potential 
eruption and lahar--so not that Mount St. Helens wasn't 
significant, but the population density around Mount Rainier is 
a total other story. However, new monitoring, science and 
warning systems are needed throughout the West Coast. That is 
why Chairman Murkowski and I are co-sponsoring the National 
Volcano Early Warning and Monitoring System Act to protect 
communities that are in these high risk areas.
    Another significant hazard in Washington State is 
earthquakes, just like the Chair said. And Dr. Vidale, who is 
here, is the State Seismologist, who has been working with USGS 
and other states along the West Coast to develop an earthquake 
early warning system. USGS studies show that a major earthquake 
could occur in the next 50 years. It has been estimated that 
this earthquake could approach the intensity of the quake and 
tsunami that struck Japan in 2011 and particularly could affect 
major cities like Seattle. In fact, we are having a large-scale 
tsunami drill two months from now, in the next 60 days, in the 
Northwest. There are going to be thousands of people 
participating and learning how to respond to that type of 
event.
    That is why we continue to advocate for the Earthquake 
Early Warning System--because it would save lives and billions 
of dollars. That is also why we introduced the Tsunami Warning, 
Education, and Research Act which passed the Senate last year 
and would require USGS to work with NOAA on a tsunami program.
    Madam Chair--because I know you care so much about this--
from our work on the Commerce Committee in looking at this, it 
is clear there is so much that needs to be done with the 
mapping and then working with the local community that needs to 
be knitted together. People need to see the maps, what could 
potentially happen, and then the community has to knit together 
a response. And all the agencies that are responsible for that 
need to work together.
    Finally, I want to mention the terrible tragedy of Oso that 
occurred in March 2014, which caused 43 deaths. That mudslide 
was such a devastation, and we still feel the loss of life and 
thank so many of our first responders who responded to that. 
The USGS provided critical assistance in the search and rescue 
operation, including real-time monitoring to keep our first 
responders safe. A horrible tragedy and yet we couldn't even, 
without USGS, send the first responders into the area without 
their information and data about whether it was safe to go into 
the area. So we were counting on them.
    Landslides cause over two dozen fatalities and $1-$2 
billion a year in damages across the country, so this is a 
significant issue. So, I think better understanding these 
hazards and their impact and potential for helping save life 
and property is very important. I am pleased to hear that USGS 
is proposing to increase its work in this area. We need a 
national landslide mitigation strategy, more science, more 
monitoring, to prevent these tragedies from occurring.
    Another area I just want to highlight is partnerships with 
the USGS to protect and restore watersheds. Washington is home 
to some of the greatest rivers and estuaries--the Puget Sound 
and Columbia River are the economic and cultural lifeblood of 
our region, so their work there is very important.
    The USGS has faced a number of institutional challenges in 
carrying out its mission. With a budget of only $1.06 billion, 
the organization leverages its resources many times over; 
however, many areas, such as hazard and water monitoring, are 
severely underfunded. This is where, I think, good science 
really can help all of us move forward.
    Strategic investments are needed to advance new science and 
tools. A number of programs and business practices need to be 
modernized and streamlined, and it is important that we have 
and strengthen these programs.
    Again, I know other of our Committees are talking a lot 
about drones and drone systems. These can provide some very 
critical tools and information. We want to see that move 
forward so that these agencies can use these effectively.
    I am so glad that we are having both panels today, and 
again, thank you for being here.
    The Chairman. Thank you, Senator Cantwell.
    Senator Cantwell just mentioned we do have two panels 
today. We are pleased to have the Director of USGS, Director 
Suzette Kimball. Welcome to the Committee. After you have 
presented your oral comments this morning, we will have a 
series of questions and then we will move to our second panel 
and look forward to their input this morning as well.
    So, welcome.

         STATEMENT OF HON. SUZETTE KIMBALL, DIRECTOR, 
                     U.S. GEOLOGICAL SURVEY

    Dr. Kimball. Well, thank you very much, Senator Murkowski 
and Senator Cantwell and members of the Committee. I very much 
appreciate the opportunity to testify before you today. I'm 
very excited to share the views of the USGS on the state of our 
organization and its mission.
    And I'd very much like to start the conversation at the 
point in which Senator Murkowski, you started the discussion 
that Congress established the USGS in 1879. And our mission 
then was not only to map the West and locate resources, but 
also to push the boundaries of science. Our scientists have 
pursued that mission with uncommon dedication, and I'm very 
honored to be their 16th Director.
    Since we were established, technology and Earth science 
have evolved and we have evolved as well. As you noted, two 
years ago, Madam Chairman, on the anniversary of the 1964 Good 
Friday Earthquake in Alaska, USGS Science in response to that 
event helped confirm the theory of plate tectonics, 
fundamentally changing how we approach earthquake science.
    In 1995 Congress merged the National Biological Survey with 
the USGS making us an integrated Earth science agency, one of 
the only agencies of this type worldwide. Since then the value 
of bringing Earth science disciplines together has become more 
apparent.
    I want to stress that we rely on partnerships to pursue our 
mission. State geological surveys, universities, municipal 
governments, other federal agencies and foreign governments are 
all critical partners for the USGS. Our budget is leveraged 
resulting in approximately an additional half billion dollars 
contributed by our partners. These partnerships, for example, 
have made it possible to publish such reports that offer 
industry and regulators guidance on how to site, develop and 
close mines with resource and environmental implications taken 
into account.
    The USGS also works closely with other Interior bureaus and 
other federal agencies such as the EPA, NASA, NOAA and the Army 
Corps of Engineers. Rather than duplicate these agencies' 
missions, we complement their research and contribute sound 
science to their decisions.
    While I'm proud of the Bureau's integrated approach to 
problem solving, innovation is a characteristic that I hope to 
nurture during my tenure in this office. For example, we 
continue to pursue 21st century mapping. In Alaska we're 
harnessing our partnerships with the state and university and 
using IFSAR to produce modern geospatial information for the 
state, and we closed last year, by the way, at 63 percent 
completion for Alaska.
    Meanwhile, in the lower 48, LiDAR collected by a coalition 
of federal, state and private industry partners, can enable 
mapping and even forecasting of landslides. The tragedy at Oso, 
Washington in 2014, like the Good Friday Earthquake, pushes us 
to complete scientific achievements worthy of the investment 
and trust placed in us by the American people.
    Speaking of hazards, the USGS has long led federal research 
into geologic hazards and we're pushing innovative approaches 
in this area too. Along the West Coast, we're establishing an 
earthquake early warning system that could readily be expanded 
to Alaska and other high risk regions of the country. We're 
also applying advanced telemetry and remote sensing tools to 
make volcano early warning a reality.
    The unknown unknowns of Earth science motivate us to 
advance our understanding of the world. Looking to the future I 
see challenges where we are positioned to lead, water security 
and availability, the tools for addressing natural hazards, the 
assessment of critical minerals, the forecasting and preventing 
of biological threats and, of course, developing the next 
generation of mapping technology.
    The mission of the USGS in the 21st century will be to 
locate natural resources for the benefit of the nation and to 
find ways to sustainably exploit those resources so that our 
prosperity endures. Indeed, research suggests that we may 
someday even harness the energy of coal using microbes that 
will avoid many of the associated environmental costs. It's the 
job of the USGS, working with our partners, to help bring that 
future to fruition.
    So on behalf of the more than 8,000 employees of the USGS, 
thank you again for inviting me here today and for the 
opportunity to testify. I will be very happy to answer any 
questions you may have. Thank you.
    [The prepared statement of Dr. Kimball follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
    The Chairman. Thank you, Director Kimball.
    Let's begin. We have got good participation by the 
Committee this morning and hopefully more will drop by as well.
    I appreciate you acknowledging not only the core mission of 
the USGS but also some of the challenges that we have going 
forward. I have noted, particularly, your comment about water 
security. I do not think that we spend near enough time 
understanding our water resources. We all know that, at least 
from the West, water is the thing that we fight over all the 
time. So understanding that as a resource is key.
    I want to ask you about the importance of minerals within 
the USGS mission. In my December 18 letter to you regarding the 
concerns that I had outlined about the budget priorities, I 
indicated that USGS has reduced its traditional core function 
of assessing this country's mineral resources. You responded by 
noting that the Minerals and Energy Resources Program has not 
been demoted but rather has been elevated. What I am wondering 
this morning is how it has been elevated from a budget 
perspective because that is really where we are placing 
priorities, and we need to know to what extent then, as we have 
done an assessment for our mineral commodity's summaries, how 
we are working to expand our knowledge and understanding within 
this database here? If you can just speak to the priorities 
within the agency focused on our minerals and understanding our 
inventories?
    Dr. Kimball. Well thank you very much for that question. 
And I want to assure you that the USGS has taken very seriously 
the comments that we've received from this Committee in 
previous hearings, as well as the questions for the record that 
we've received.
    As you point out, we have taken concrete steps to address 
new strategic directions for our minerals work to enhance our 
ability to do life cycle analysis which we think is going to be 
essential as we move into new technologies that will require 
different types of minerals being applied to activities.
    As you pointed out, we have identified and submitted a 
reprogramming request last fall to Congress to have created, 
which we've done, an Associate Director specifically for our 
Energy and Mineral Resources. That individual's responsibility 
will be to pursue those kinds of activities that will help 
enhance the budget through our various partnerships. And those 
partnerships are very important. We have strong partnerships 
with industry. We have strong partnerships with other federal 
agencies. And that's going to be essential to having an 
understanding of the global scale and scope of mineral 
resources.
    The Chairman. Can I interrupt and ask a question on that?
    You have noted that, for instance, with Alaska mapping now 
we are at 63 percent which is making some progress.
    Do we know to what extent we have surveyed our lands to 
determine the extent of our own domestic mineral base? Can you 
say we have surveyed and analyzed 50 percent, that we are 
halfway there? To what extent do we know our own mineral base 
here in this country in terms of an inventory?
    Dr. Kimball. I don't have the answer for that today but our 
scientists and our program coordinators know that number and 
we'll be happy to provide that for the record.
    The Chairman. I would be interested.
    Along those same lines, the geologic mapping in terms of 
the extent to which we have surveyed and understand and have 
accurate mapping of our geologic resources. Is that information 
that you can also make available to us?
    Dr. Kimball. Yes, we can.
    The Chairman. Great.
    Dr. Kimball. We have that information.
    The Chairman. Great, I appreciate that.
    And then my last question, the White House, you mentioned 
the Earthquake Resilience Summit that they held on February 
2nd.
    Was USGS consulted by the White House on that summit? We 
were very surprised that Alaska did not have any role or 
participation. Our state seismologist was not brought into the 
loop. Now we had the Secretary of the Interior here not too 
long ago and she indicated the same thing, that this might be 
readily expandable to Alaska. It is all a function of money. 
But we did find that it was somewhat unusual that the most 
seismically active state was not brought into this process. Do 
you know what happened there?
    Dr. Kimball. I do not know all of the details. This, of 
course, was an event that was coordinated through the White 
House.
    I know that----
    The Chairman. Were you all involved at USGS?
    Dr. Kimball. We were involved and for that matter, we did 
have conversations with the state seismologist about 
participation but it was late in the game and my understanding 
was at that point they were not able to travel.
    However, that being said, I need to assure you that the 
USGS agrees that Alaska is very much in our minds in terms of 
the next place where we need to begin working on earthquake 
early warning. We have opportunities within Anchorage, but we 
also recognize that Alaska has priorities in being able to 
establish a statewide seismic network and that that is one of 
the higher priorities within the state. We have been having 
discussions with your Commissioner of Natural Resources and the 
State Geologist about how to accomplish that and move forward 
with that.
    The Chairman. We will have further conversation on that but 
recognizing that it is the most seismically active state and 
then also that it is not part of the contiguous United States 
and that if we did have a major earthquake along the lines that 
we had in 1964, you are cut off effectively from the rest of 
the country and, really, from an asset. So it is part of a 
bigger plan, but I look forward to talking with you about that 
as well.
    Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair.
    Dr. Kimball, the New Yorker article that came out about the 
Cascadia subduction zone, I think it was a year ago. ``The 
Really Big One,'' I think was the title of the article, about 
an earthquake that will destroy a sizable portion of the 
Pacific Northwest Coast. The question is when?
    [The information referred to follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
  
    
    Senator Cantwell. I think, probably, that is the most I 
have heard from my constituents, from people across the 
country, people I grew up with, people in Europe, everybody 
saying, ``Have you read this?''
    So the question is, I don't even know if people here in our 
nation's capital have their mind wrapped around this. It was 
very frustrating. I think the FEMA Region 10 Director was 
quoted in the article as saying, ``Everything West of I-5 will 
be toast.''
    This is something we need to prepare for. I guess my 
question is, do we have all the tools necessary now to 
accurately depict the understanding of the Cascadia subduction 
zone? And what leadership role do you think that we need to 
push forward with other agencies so that we have the 
information and resources to move forward on a concrete plan?
    Dr. Kimball. Well thank you for the question. And yes, I 
think we've all read the New Yorker article.
    Within USGS we do have a priority activity to begin looking 
at the Cascadia subduction zone. It is the kind of system that 
could generate the same sorts of magnitude activities that we 
saw with the Tohoku earthquake in Japan and the Fukushima 
issues there. So we agree that it is important to look at that.
    There is more to be done to understand the mechanics. I 
think, perhaps, a more important aspect now, and you're taking 
the first steps with the tsunami activity that's coming up 
later this year, is to make sure that individuals understand 
the potential, understand the true probability of an event and 
what to do should that kind of event occur.
    That's one of the premises behind the various activities 
like the Earthquake ShakeOut events and the ARkStorm events to 
have those kinds of events take place in cities up and down the 
West Coast and especially in the Pacific Northwest. So I think 
that will be an important activity.
    Senator Cantwell. I just want to make sure that we are 
knitting this together. I guess that is the best word.
    Just having been in Pacific County a week or so ago and 
having people from the University of Washington there and the 
local community which is, basically, a very rural part of our 
state. So you have a scientist on one hand saying this is the 
devastation and I will help you plan, and you have a local 
community that is a very small, rural community, and county 
commissioners, Madam Chair, and mayors, who are trying to do 
their best job. They are trying to get a plan for their 
community. I don't know that I would call that knitting it 
together. I think the exercise we are going to do will probably 
be a better knitting together, but I guess what I am saying is 
I feel like we have to keep doing work to make this plan a 
reality at the federal level because I think it is going to--
this size that people are talking about, the map that they show 
is all the way from--I am sure it will have an impact on 
Alaska, but everything from Washington all the way through 
California. Basically one of the largest economies in the 
world, the West Coast economy, will be greatly impacted by 
this, so I think we want to keep knitting it together.
    And on that point, you have signed an MOU, I think, with 
Pierce County, as it relates to a warning system. What can we 
do to make sure that that funding is there? And how do we make 
sure that we get the amount of funding that we need for the 
LiDAR data since this also, from just a mudslide perspective, 
is critical?
    Dr. Kimball. Right.
    Well having the LiDAR database is absolutely foundational 
to being able to understand the potential risk associated with 
these efforts.
    At the moment----
    Senator Cantwell. You are saying not just on landslides, 
but for the Cascadia subduction zone, having the LiDAR mapping 
system is going to be----
    Dr. Kimball. Is not just for landslides, but for 
understanding flood potential, for instance. Having the 
information about the topographic expression is going to be 
very, very important.
    Of course, working with the state geologist's office and 
developing the geologic maps is also going to be essential if 
you want to best understand the Cascadia subduction zone as 
well.
    So all of these need to come together in a coordinated 
fashion.
    As you point out that the knitting together is important, 
I'd like to point out that we have an office that is called 
Science Applications for Risk Reduction that is specifically 
dedicated to doing that. We've worked very closely with the 
seismic community and with SAFRR, the acronym, to help knit 
together both information, technology and infrastructure needs 
and public awareness. I think using the kinds of tools and 
technologies for communication and for pulling communities 
together will help with an understanding both of landslide 
potential and of the potentials associated with tsunami in the 
Northwest.
    Senator Cantwell. Thank you, Madam Chair.
    The Chairman. Thank you.
    Senator Franken.
    Senator Franken. Thank you, Madam Chair, and thank you, Dr. 
Kimball.
    We talked a little at the beginning about the Asian Carp, 
and it sounds like you have done some trials and are about to 
go in the field with the experiment on, sort of, this magic 
bullet that will target the carp's ability to reproduce. Is 
that right?
    Dr. Kimball. Yes, sir.
    The bio bullet has gone through the laboratory trials. We 
are finished with that. We'll be doing field trials this spring 
and summer, and at that point we have information to put it 
into the system that actually registers the drugs for 
application. And so, we are well on our way to demonstrating 
the utility and viability of that particular method for carp 
control.
    Senator Franken. That is very good news and thank you for 
that work.
    Dr. Kimball, according to your mission statement, the USGS 
serves the nation by providing reliable scientific information 
to describe and understand the Earth, minimize loss of life and 
property from natural disasters, manage water, biological 
energy and mineral resources and enhance and protect our 
quality of life. You have a big job.
    Climate change is one of the biggest threats that we face. 
Climate change has and will continue to impact critical areas 
within the USGS mission.
    Dr. Kimball, I am struck by the overlap between the core 
mission of the USGS and the potential impacts of climate 
change, and I am pleased that you have made climate change a 
priority at USGS including strong funding for climate-related 
activities in the Administration's FY2017 budget request.
    I am interested in the USGS' work in satellite imagery and 
the monitoring of the Earth's system. Can you describe the 
importance of this work in understanding climate change and its 
impact on our society?
    Dr. Kimball. Well satellite imagery is a tool of the future 
in any number of ways.
    Within USGS we operate the Landsat satellite system which 
provides eight-day repeat imagery of the globe at 30-meter 
resolution. This is the perfect mid-range resolution for 
understanding aspects associated with water supply, with 
agriculture, with forestry, with changes in land use. And in 
the 44 history, or 44-year history, of Landsat we've been able 
to do that.
    It has amazing commercial applications. We've been part of 
an analysis that has indicated that the provision of the 
Landsat data set and free and open access has resulted in over 
$2 billion return for commercial applications in terms of 
things like better management of irrigation systems.
    Senator Franken. Sure.
    Dr. Kimball. Better management of forestry.
    So having the ability to use satellite-based global 
observations gives us that global perspective that allows us to 
identify change and change through time. Coupled with geologic 
change, the understanding of the long-term cycles within the 
Earth is we are able then to put together a very good picture 
of how change might occur affecting various aspects of Earth 
resources.
    Senator Franken. Thank you. Thank you.
    I want to talk about One Health. Over three quarters of the 
emerging diseases we faced in the last century have come from 
an animal source. Our ability to stop outbreaks relies on fast 
detection and response, and this means that wildlife experts 
and public health officials must work together in a One Health 
approach.
    My One Health bill will direct the Administration to create 
a framework that will strengthen coordination between the 
agencies and support initiatives that foster more disease 
surveillance in animal populations at the state and local 
levels. The USGS plays an important role in this framework.
    Dr. Kimball, in your testimony you describe USGS as the CDC 
of wildlife. Can you tell us more about how the work done by 
USGS helps prevent the spread of zoonotic diseases and what 
ways does the USGS coordinate with other public health agencies 
to prevent and respond to disease outbreaks?
    Dr. Kimball. Well thank you very much for that question, 
Senator Franken.
    The National Wildlife Health Center is a unique facility 
that has responsibilities for not only responding to particular 
disease events, die offs, for instance, but also for providing 
worldwide monitoring that's associated with the vectors that 
disease spread for things like, for instance, Avian influenza, 
West Nile virus.
    We are privileged to be part of the White House Fast Track 
Action Committees for diseases that are typically considered 
human health diseases such as Ebola and Zika, but those 
diseases actually have a genetic connection to wildlife 
disease. And so being able to connect our understanding of the 
spread of wildlife disease, the spread of vectors such as 
mosquitoes and changes in mosquito reservoirs based on 
understanding of say, climate change variables, is an important 
connection to the public health arena.
    I'd also like to point out that our minerals work is also 
very closely connected to the public health sector. 
Understanding things like the risk associated with asbestos-
formed minerals and the risk associated with various air 
quality conditions and water quality conditions is another 
aspect of environmental health that is important and a key 
mission priority for us.
    Senator Franken. Well thank you for the great work that you 
guys do.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Franken.
    Senator Hirono is next, but I understand that she is going 
to defer to Senator Manchin. Thank you.
    Senator Manchin. First of all let me thank Senator Hirono, 
my friend, and I appreciate it.
    But very quickly the USGS has the Leetown Science Center 
headquarters in Leetown, West Virginia, and it does a 
tremendous amount of ecological work. I think it has six other 
states that are involved with this one center.
    The only thing I am asking is would you come and visit the 
center with me, if I can extend that invitation to you?
    Dr. Kimball. Thank you, I would be delighted to have the 
opportunity.
    Senator Manchin. Would you, if we could go? Okay.
    Dr. Kimball. To visit the center.
    Senator Manchin. We will arrange it then with your office.
    Dr. Kimball. Absolutely, thank you.
    Senator Manchin. Okay.
    The other thing I want to talk to you about is seismic 
operations and deep well injections. I know you have come out 
with a report.
    I have been speaking to the NETL, National Energy 
Technology Labs. We are all concerned because I know that the 
Marcellus shale in West Virginia was not mentioned in that. But 
I would assume that any type of injections, if it is not done 
and done properly, can be contributed toward the seismic 
activity that we are seeing.
    Dr. Kimball. Our work on induced seismicity leads us to 
believe that it is most often associated with deep waste water 
injection wells. And again, depending on how those wells are 
constructed and how the operations take place can affect it.
    Senator Manchin. So you know there is a proper way and an 
improper way. I am just asking if we have come to the 
conclusion that we can do it and do it safely, and I will give 
you a perfect example. I know that we are concerned about well 
water impregnation as far as our drinking water aquifers and 
all that. In West Virginia we require basically double wall 
casing with cement in between all the way to formation which 
prevents that from happening, if it is done and done properly.
    Also with the deep well injection we know if it is done 
properly with NETL's research that they are doing. I think 
working maybe with you all too, we are looking for that, that 
we can minimize, almost minimize, any risk that we have for 
seismic operations from deep well.
    My concern is this. The energy this country needs and 
energy this country is using in so many different areas, 
whether you like it or not, there is a proper way to do things 
rather than just saying we are going stop it all together. That 
is what I am concerned about, because people will just shut it 
down for the sake of shutting something down. We need this 
energy, and we are looking for the proper ways.
    Have you all seen, basically, with the proper injections, 
the proper deep well type of formations? And have you come out 
with recommendations, rules and recommendations of how this 
should be injected?
    Dr. Kimball. No, we do--have not come out with----
    Senator Manchin. That's not your----
    Dr. Kimball. The rules and recommendations. That's not 
within our mission purview.
    However, I can commit to you that our scientists would be 
happy to have discussions about the observations of what 
actually may trigger these kinds of events.
    Senator Manchin. I would just say if I can work with your 
scientists and work with basically NETLs, our National Energy 
Technology Labs, making sure that we are all concurring on how 
we can do it and do it right and start forming the rules and 
regulations, working with EPA to make sure before they start 
overreaching and shutting things down, making sure they can 
comply and do it safely and do it properly. Because I think 
every state is a little bit different here on this, and before 
you know it it is going to have a snowball effect and we are 
going to have an energy shortage and be back to where we were 
before.
    Dr. Kimball. Well, we'd be very happy to enter into that 
discussion with you.
    Senator Manchin. Okay.
    That is all I needed to say. We will contact you on that 
too, if you can get your people.
    Dr. Kimball. Absolutely.
    Senator Manchin. Get your people with our people, how about 
that?
    Dr. Kimball. That sounds good. Yes, sir.
    Senator Manchin. Thank you.
    Dr. Kimball. Thank you.
    The Chairman. Senator Hirono.
    Senator Hirono. Thank you, Madam Chair.
    Dr. Kimball, the Ohia tree is a native species that is an 
anchor to Hawaii's rain forests and is currently being 
threatened by rapid Ohia death, or ROD.
    As of early 2016 ROD, which has a 100 percent mortality 
rate for infected trees, has impacted 34,000 acres of native 
forest on Hawaii island. Of course, that impacts our watershed, 
et cetera. So as you can imagine this crisis situation requires 
a coordinated effort on the part of the county, state, federal 
agencies including, of course, yours.
    Can you provide an update on the models that USGS 
scientists have been constructing to predict the spread of the 
fungus that causes ROD and when will these models be ready to 
be implemented? And how has the recent prediction by scientists 
that burrowing beetles are spreading ROD impacted model 
development?
    Dr. Kimball. Well thank you for that question.
    Our Center Director at the Pacific Islands Ecological 
Research Center has, in fact, informed me about the importance 
of this issue and the potential devastating impacts that this 
could have to the ecosystems in Hawaii.
    I do not have the answer with me and to specifically answer 
your question about the model development, but I will be happy 
to provide that for the record.
    Senator Hirono. Thank you so much.
    Then turning to Albizia. USGS, in collaboration with the 
University of Hawaii Hilo, worked to collect satellite imagery 
of the forest canopy in Puna on Hawaii Island following 
Tropical Storm Iselle in the fall of 2014. This imagery was 
gathered to assess the most heavily impacted areas and develop 
a model of tree canopy conditions that were impacted during the 
storm.
    Frankly, a lot of the damage that arose out of the Tropical 
Storm Iselle was the fact that these Albizia trees would just 
fall over and create a lot of the property damage was due to 
that.
    Can this model be used to identify the highly invasive 
Albizia trees which grow like weeds, practically, in areas with 
canopy conditions similar to those impacted in order to locate 
and remove Albizia trees to mitigate impact from future storms? 
And what other steps can be taken to identify Albizia trees in 
potential hazard locations for the future? This may be another 
one where you need to check and get back to me.
    Dr. Kimball. I will have to check for the specifics.
    I can tell you that there are a number of techniques that 
allow us to identify through global Earth observations, either 
from space or from airborne technologies, that allow us to 
identify particular species, canopy species, and their 
distribution from their reflectance in the--as the imagery is 
collected. So there are a number of different ways. The ways 
that could be most effective for modeling those tree 
distributions within Hawaii is beyond my knowledge base right 
this instant, but we will be more than happy to provide that 
information for you.
    Senator Hirono. Thank you so much.
    Your organization's Hawaii Volcanoes Observatory plays a 
crucial role in monitoring Hawaii's active volcanoes, and as 
you know, Kilauea has been active for decades.
    Scientists communicated closely with the state Civil 
Defense and the county during the lava flows at Kilauea last 
year. Given the increased seismic activity at Mauna Loa on the 
Big Island, can you discuss any ways that Congress can continue 
to provide support to this critical work to ensure public 
safety due to active volcanoes? I realize we have over 100 
active volcanoes in our country, so do we provide enough 
support for what you are doing?
    Dr. Kimball. Well----
    Senator Hirono. --volcanoes?
    Dr. Kimball. This particular Committee, in providing 
bipartisan proposed legislation to establish volcano early 
warning and volcano monitoring systems, is going a long way 
toward elevating the need and the kinds of activities that need 
to take place in order to maintain that monitoring system.
    As always, new technologies evolve that are very helpful. 
And as those technologies evolve for looking at things such as 
gas emissions, that help us understand when volcanoes are 
getting ready to erupt and the ability to pursue those new 
innovations, is going to be essential for maintaining those 
long-term monitoring systems.
    We are absolutely committed to that effort. We're 
absolutely committed to enhancing and providing additional 
assistance for volcano monitoring.
    The President's proposed budget for 2017 actually puts into 
our proposed base funding those funding levels that Congress 
has put in as one-time increases over the past two years. So we 
are working to increase our base funding to address volcano 
monitoring issues.
    Senator Hirono. Thank you.
    Just very briefly, I know that you are focusing on the next 
generation of young people to scientific inquiry, and I commend 
you for those efforts and especially the focus on Native 
American young people.
    Dr. Kimball. Thank you.
    Senator Hirono. Thank you, Madam Chair.
    The Chairman. Senator Stabenow.
    Senator Stabenow. Well thank you very much, Madam Chair.
    Dr. Kimball, thank you so much for your work and the work 
of your agency. We appreciate it very much. With my Great Lakes 
hat on, and we have a number of members of our Committee that 
surround the Great Lakes, we thank you for your ongoing 
efforts. That is really what I want to talk about and that is 
the whole effort around trying to stop the Asian Carp from 
getting into the Great Lakes which has been of such concern to 
all of us on a bipartisan basis, who represent the area. I 
appreciate the role that U.S. Geological Survey is playing as 
part of the Asian Carp Regional Coordinating Committee.
    I first wanted to just ask you your thoughts. As you know, 
we have seven federal agencies, departments, natural resource 
officials from all of the Great Lakes states as well as 
regional bodies that came together through the President's 
initiative just set up, the Asian Carp Regional Coordinating 
Committee. I have been thinking it might be good to actually 
authorize that officially in law. I wonder if you have any 
thoughts about that?
    Dr. Kimball. Thank you, Senator.
    As I've had the opportunity to talk to colleagues in the 
Great Lake states, they feel that that particular committee has 
been very, very effective. It's been a keystone in the way 
we're able to coordinate science needs, science priorities with 
the actual operational activities that need to take place. So I 
can tell you that our scientists feel that that Committee is 
very effective and should remain in operation, however we do 
that.
    Senator Stabenow. Great. Well thanks very much.
    I appreciate your working with the Great Lakes Fisheries 
Commission, the Council of Lake Committees. I mean, all the 
effort and research that is going on.
    This is what I wanted to zero in on in terms of research 
right now as we look how we stop these fish that grow up to 100 
pounds and have no functioning stomach and basically will 
destroy the other fish habitat and fish in the Great Lakes as 
well as the boating industry and so on and so on. This is 
actually a very serious economic and ecological issue for us, 
trying to stop these fish.
    When we look at the best strategy right now, as you know, 
about 40 miles south of Chicago is the Brandon Road Lock and 
Dam which is a place where the rivers come together and where 
we have been focused. The Army Corps of Engineers is looking at 
the best technologies to deploy there in addition to the 
electric fences that are there down in the water and so on.
    I wonder if you could talk about the technologies and 
deterrents you are reviewing for deployment at this particular 
spot and whether carbon dioxide barriers are at a point soon to 
be deployed? We have heard a lot about that as a possible 
deterrent for the fish and wondered if you might speak about 
the technologies, but also about the carbon dioxide barriers 
that they are testing?
    Dr. Kimball. Well we've been working very closely with the 
Corps of Engineers on these particular technologies.
    One of the challenges that we face is how do you maintain 
the consistent pressure through the water column that will have 
the desired effect on the Asian Carp and not impact other 
species? And so, that is a challenge now. And it's one that the 
Corps of Engineers from a technology development perspective 
and the USGS from an understanding of fish physiology are 
working closely together to try and address.
    I don't have an answer for you in terms of how far we are 
from an actual implementation of that kind of technology, but 
I'd be happy to go back and ask our scientists to provide that 
answer for you.
    [The information requested has not been provided as of the 
date of printing.]
    Senator Stabenow. We are very concerned. We have a 
bipartisan Great Lakes Task Force, as you know, in the Senate 
as well as the House, which not long ago held a meeting where 
we were urging the Army Corps, USGS and everyone, to not wait 
until everything has been analyzed, that if there is one 
technology that looks like it will work to begin to deploy 
that. So we are interested in the carbon dioxide research that 
has been done. And the other one is, I am wondering if you know 
how far along the approval process, under FIFRA, that the micro 
particles that everyone talked about that would put toxins into 
micro particles to target the carp? Are you are aware at all 
where that technology stands?
    Dr. Kimball. We've completed the laboratory trials for that 
technology, and we'll be going to field trials this spring. And 
I do not know how long it will take in the drug registration 
process to move it through, but I do know that we are going to 
field trials now.
    Senator Stabenow. Well if you feel that this is something 
that is credible and will work, we certainly want to know and 
work with you and do everything we can to be able to make sure 
that this is expedited in the right way to be able to get it 
out the door because the fish are not waiting for us, as you 
know. We debate and hold hearings and discuss things and they 
keep finding a way to get closer and closer to the Great Lakes.
    So I am anxious to continue to work with you, and I 
appreciate your agency's work.
    Thank you.
    Dr. Kimball. Well thank you. And we're happy to work with 
you, and we'll continue to provide you updates as we move 
forward with this.
    Senator Stabenow. Thank you.
    The Chairman. Director Kimball, thank you.
    I have a whole series of questions, many related to 
unconventional oil and gas, some questions about land patenting 
issues and then the work that USGS is doing in better 
understanding the migration and winter habitat of the black 
brant, but I will be submitting those to you for followup. 
Senator Cantwell.
    Senator Cantwell. I have a couple to submit too.
    The Chairman. Other members of the Committee may have some 
followup as well. But because we do have a second panel and I 
know we have votes that are coming up, I think we will excuse 
you. Again, thank you for appearing before the Committee today.
    Dr. Kimball. Again, thank you very much for the 
opportunity, and I'll look forward to the questions for the 
record.
    Thanks.
    The Chairman. Great. Thank you very much.
    Let's call up the second panel at this time.
    We are joined this morning by some very esteemed scientists 
and folks with an understanding of so many of these issues in 
good and deep detail.
    We have Mr. Ed Fogels. Ed is the Deputy Commissioner for 
the Alaska Department of Natural Resources. He has had an 
opportunity to appear before the Committee in other areas. Not 
only do we appreciate your insight, Ed, but we also appreciate 
the fact that you have traveled a long way to be here with us 
this morning and we greatly appreciate that.
    Next we have Dr. P. Patrick Leahy, not to be confused with 
a Patrick Leahy that----
    Senator Cantwell. We all know.
    The Chairman. We all know and work with on a daily basis. 
Dr. Leahy is the Executive Director for the American 
Geosciences Institute.
    We also have another Alaskan and fellow Fairbanksan, Dr. 
Robert McCoy, who is the Director of the Geophysical Institute 
at the University of Alaska Fairbanks. He is another individual 
we rely on a great deal for his expertise, so welcome and thank 
you for traveling all this way.
    And as Senator Cantwell mentioned earlier, Dr. John Vidale, 
who is the Washington State Seismologist and Director at the 
Pacific Northwest Seismic Network at the University of 
Washington.
    Again, a very esteemed panel and a panel that has come from 
long distances to be with us.
    We will go ahead and begin with your opening comments. We 
would ask you to keep your comments to about five minutes. Your 
full statements will be incorporated as part of the record, and 
then we will have an opportunity for questioning.
    I will also offer my apologies. I am trying to be in two 
places at once. I have an Appropriations hearing that is going 
on downstairs, so I will be bouncing in and out. That does not 
mean that I am not interested, it means that I need to be in 
two places at once.
    Let's start with you, Mr. Fogels. Again, welcome back to 
the Committee.

       STATEMENT OF EDMUND FOGELS, DEPUTY COMMISSIONER, 
             ALASKA DEPARTMENT OF NATURAL RESOURCES

    Mr. Fogels. Thank you, Chairwoman Murkowski, Ranking Member 
Cantwell and honorable members of the Committee. My name is Ed 
Fogels. I'm the Deputy Commissioner of the Alaska Department of 
Natural Resources. And on behalf of Governor Bill Walker, thank 
you for this opportunity to testify in strong support of 
Alaska's mapping and the critical role that the U.S. Geological 
Survey plays in this effort.
    Alaska is a huge place. It is one-fifth the size of the 
entire United States, and it is the least geographically and 
geologically understood of all states. It has twice the land 
area of Texas and covers 32 ecoregions. In many respects, the 
planet Mars has been mapped better than Alaska.
    The USGS is Alaska's primary partner in improving our 
knowledge base of our vast state, whether it be mapping our 
topography, our geology, our geologic hazards or our energy and 
mineral resources. The good news is that we, largely because of 
our strong partnership with the USGS, have made a great deal of 
progress mapping Alaska.
    In 2006 the State of Alaska established the Statewide 
Digital Mapping Initiative to create an accurate base map of 
Alaska consisting of satellite imagery and elevation data. To 
date, the State of Alaska has appropriated $19.5 million in 
this effort and our federal partners have contributed $35.1 
million, and we are well on our way to finishing our base map.
    These efforts gave rise to the Alaska Mapping Executive 
Committee, chaired by the Department of the Interior and having 
representatives from 19 federal agencies and the State of 
Alaska, and the USGS has been instrumental in this effort. Our 
mapping collaboration with the USGS involves creating a number 
of data layers that together form our digital base map.
    First, the elevation layer is the most foundational. This 
layer is a digital model of our terrain. In Alaska, many areas 
are only mapped at 60 meter resolution. This results in 
enormous errors and inaccuracies. We are now collecting 
improved elevation data at a five meter resolution using the 
IFSAR technology. We are approximately 63 percent complete and 
hope to be over 70 percent after this summer, a testament to 
the highly effective collaborative efforts through AMEC, the 
Alaska Mapping Executive Committee, between the State of Alaska 
and federal agencies such as the USGS.
    The next layer is imagery. From imagery, additional 
information such as roads, railways, pipelines and trails can 
be derived. We now have a two and a half-meter resolution 
satellite image available for almost all of Alaska.
    Our third layer is hydrography. Hydrography is a map of all 
the water features in Alaska such as lakes, streams, ice fields 
and coastlines. We have completed 11 percent of Alaska, soon to 
be at 28 percent, with the help of many partners including the 
USGS, and we are making great strides in improving this 
important data set.
    The other critical layer that I need to mention is geodetic 
control. Geodetic control provides the framework to accurately 
position all our mapping activities. Key to good geodetic 
control are what we call continuously operating reference 
stations which are fixed ground stations that help GPS devices 
give more accurate positioning. The more of these stations we 
have, the more accurate our GPS positioning is.
    Alaska already has one of the lowest densities of any 
state, and over half of our existing stations are in danger of 
decommissioning when the Earthscope project loses its funding 
in two years. We are also looking at ways to utilize existing 
infrastructure such as the Earthscope transportable array 
stations to collocate this equipment.
    I'd like to give the Committee an example of a real world 
product that is being produced using all of this new data, a 
product that is helping everyone from hikers enjoying Alaska's 
great parks to geologists mapping our mineral resources, to 
agency land managers, new topographic maps. Alaska's 
topographic maps are compiled from antiquated surveys dating 
from the '40s and '50s. Much to our delight the USGS National 
Geospatial Program is now creating the new U.S. topo map in 
Alaska providing far more accurate maps.
    Now let me move from our foundational mapping data to 
something much more specific, mapping Alaska's geology. In 
Alaska, good geologic mapping has been completed for about 17 
percent of our state. The remaining area to be mapped is 
roughly equal to the combined area of California, Oregon, 
Washington and Idaho, and at our current rate of mapping this 
would take about 400 years to complete.
    USGS' National Cooperative Geologic Mapping Program, 
STATEMAP, is an excellent example of the cooperative funding 
and leveraging of state and federal dollars to conduct the 
geologic mapping.
    We need help with mapping our geologic hazards. Alaska is 
an exciting place with 52 active volcanoes and lots of 
earthquakes and permafrost hazards. Some key areas in need of 
additional mapping are coastal erosion, flooding, tsunami 
inundation mapping and avalanche and landslides susceptibility 
mapping.
    Alaska's earthquake monitoring system lags behind those in 
the rest of the nation. The National Science Foundation's 
Earthscope project will deploy 261 seismic stations and those 
are not, at this point, programmed to be kept after that time 
period and integrated into Alaska's seismic array.
    As you can see, Alaska has a wonderful and necessary 
collaborative relationship with the USGS. It is critical for us 
and the rest of the nation that this relationship continue on 
and be strengthened. The USGS needs more resources to help 
finish mapping our great state.
    Thank you very much for the opportunity to provide my 
testimony today.
    [The prepared statement of Mr. Fogels follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
   
    
    The Chairman. Mr. Fogels, thank you very much. It is always 
a little bit astonishing to learn how far we have to go; 400 
years, I don't know if we can wait.
    Let's go to Dr. Leahy, welcome.

STATEMENT OF DR. P. PATRICK LEAHY, EXECUTIVE DIRECTOR, AMERICAN 
                     GEOSCIENCES INSTITUTE

    Dr. Leahy. Thank you very much, Chairman Murkowski and 
Ranking Member Cantwell. It really is a pleasure to be here and 
to have this opportunity to provide remarks on behalf of the 
American Geosciences Institute on the role and the importance 
of the U.S. Geological Survey to the geoscience community and 
to the nation.
    As you know, my name is Pat Leahy, and I'm the Executive 
Director of the American Geosciences Institute.
    Let me tell you a little bit about AGI, which is the 
acronym for the American Geosciences Institute. It's sort of a 
unique organization in that we're a non-profit federation of 51 
geoscientific associations that represent approximately a 
quarter of a million U.S. Earth scientists. Our member 
societies represent the full breadth of the geosciences, 
everything from petroleum geologists to geophysicists, medical 
geologists, geographers, you name it.
    AGI provides information services to geoscientists, serves 
as the voice of shared interest in our profession, plays a 
major role in strengthening geoscience education and strives to 
increase public awareness of the vital role the geosciences 
play in society's use of resources, resilience to natural 
hazards and health of the environment.
    This year we published a document that was distributed 
earlier called, ``Geoscience for America's Critical Needs: An 
Invitation to a National Policy Dialogue.'' This is a 
collaborative document between AGI and its 51 member societies 
which outlines the major geoscience issues facing the nation. 
The document attempts to begin a national dialogue between 
decision-makers and geoscientists on topics ranging from 
ensuring sufficient supplies of clean water to developing 
energy to power the nation, and it provides a high level 
overview of all geoscience topics including water, energy, 
natural hazards, soils, mineral resources, oceans and coasts, 
climate change, waste disposal and workforce and education.
    In the mineral resources arena, the priorities that were 
identified include assessing the nature and distribution of 
domestic mineral resources; quantifying domestic and global 
supply of, demand for and the flow of minerals; supporting 
socially, economically and environmentally responsible domestic 
mineral production; fostering innovative solutions to lessen 
the environmental impact of production; and, use of minerals.
    In the natural hazards arena, geoscientists help 
communities identify, mitigate, prepare for, respond to and 
recover from natural disasters. Some of the priorities include 
encouraging basic and applied research to strengthen community 
resilience, prioritizing natural hazard monitoring, support 
communication of risk and vulnerabilities associated with 
hazards to the public and mitigate the hazard impacts on 
people, buildings and infrastructure.
    Clearly, USGS science and research contributes to the 
advancement of all of these community-wide priorities. Now much 
has been said about the importance of the USGS. I don't intend 
to go over that again. It's a critical agency in terms of the 
Earth sciences. I do want to point out a couple things.
    First of all, assessing the nature and distribution of our 
domestic supplies of mineral resources is a critical component. 
Just this year, highlighting the importance of monitoring data 
collection, USGS released on April 1st, a report announced that 
it will be carrying out an airborne geophysical survey as part 
of mapping the upper peninsula in Michigan. This investment is 
providing publicly available information that can be used for 
decision-making by a wide array of individuals from industry to 
the public.
    The other thing I want to mention now is that the 
organization, as someone mentioned, was founded in 1879. During 
that period of time it has developed a repository of 
irreplaceable geoscientific information that does not go out of 
date and cannot be replicated. Its store of more than a century 
of geoscience records including field notes, maps, samples, 
drill cores, publications, data sets, satellite and topographic 
data is used constantly by other researchers and by businesses 
large and small. Clearly, the USGS is a very, very important 
organization.
    I'll close by saying, on behalf of the geoscience 
community, I urge you to support the critical work of the USGS 
and to strengthen its capability to carry out its geoscience 
research, monitoring, data collection, analysis and to expand 
the distribution of its information. And those are topics we 
discussed earlier at the opening remarks.
    Thank you for the opportunity to testify today, and I would 
be pleased to answer any questions you may have.
    [The prepared statement of Dr. Leahy follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    
    
    Senator Cantwell [presiding]. Thank you, Dr. Leahy. Thank 
you for being here and for your advocacy.
    Dr. McCoy.

STATEMENT OF DR. ROBERT McCOY, DIRECTOR, GEOPHYSICAL INSTITUTE, 
                 UNIVERSITY OF ALASKA FAIRBANKS

    Dr. McCoy. Thank you, Senator, for inviting me today.
    I'm the Director of the Geophysical Institute at the 
University of Alaska Fairbanks. We were created by your 
organization, by Congress, back in 1946 at the end of World War 
II, to establish a permanent institute for the study of 
geophysics in the Arctic and maintenance of geophysical 
research for Arctic regions. It was focused on all the diverse 
geophysical hazards in Alaska but also primarily focused on 
space weather hazards and impacts to HF communications.
    You've already heard there are 52 active volcanoes in 
Alaska. There's an eruption about every three months. And like 
Senator Murkowski and several others in the room, I was delayed 
here last week when Pavlof popped ash up to 37,000 feet.
    The Alaska Earthquake Center is part of my institute, and 
last year they counted 40,000 earthquakes in Alaska--about one 
every 13 minutes. The magnitude 7.1 earthquake in the Cook 
Inlet back in January that Senator Murkowski mentioned shook 
Anchorage well but also caused breaks in gas lines and fires, 
and four homes were destroyed. So we live in a very exciting 
and hazardous region.
    Tsunamis--there have been a number of tsunamis. If you fly 
around Alaska, you can still see some of the high water marks 
from the '64 earthquake, the Good Friday Earthquake, and the 
resulting tsunami.
    We haven't mentioned much space weather, but space weather 
is also a major hazard. We see the aurora almost every day in 
the winter when it's clear, and that there's big implications 
for a major space weather event.
    My institute does research and educates students, but we 
also do a lot of operational things. In partnership with the 
USGS and the state DGGS, the Department of Geological and 
Geophysics Survey, we man the Alaska Volcano Observatory, the 
Alaska Earthquake Center and the College International 
Geophysical Observatory, to monitor volcanoes, earthquakes and 
geomagnetism from space weather events.
    We have other operational programs. We downlink satellite 
data, we map the state, we fly unmanned aircraft, we launch 
rockets into the aurora and we do active ionospheric 
experiments using an HF heater.
    We've been a--we've had a very strong partnership with the 
USGS and DGGS over the years. We're especially enthused about 
the efforts by the USGS to establish the National Volcano Early 
Warning System and to reauthorize the National Earthquake 
Hazards Reduction Program and the Tsunami Warning Education and 
Research Act.
    You've heard mention of the Earthscope Program with the 
Boundary Observatory Subprogram and the U.S. Array Program. 
This is a major enhancement we'll have. This will be a major 
augmentation to the seismic network in Alaska, and it's already 
providing new insight into what's going on in Alaska.
    A lot of us are working hard to figure out a way to keep 
some of those sites there when the NSF Program completes in a 
couple years and starts moving those out again. This could be a 
major opportunity.
    And just finally I want to mention space weather. The 
National Space Weather, the Administration of National Space 
Weather Program, the USGS and that program will be enhancing 
their geomagnetic, geomagnetism program that will provide 
increased monitoring for geomagnetic hazards from space weather 
events, and we're pretty excited about that.
    So thanks for the invitation, and I enjoyed talking about 
the diverse hazards and wonderful things going on in Alaska.
    [The prepared statement of Dr. McCoy follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Cantwell. Thank you, Dr. McCoy. We are glad you 
were able to make it this week.
    Doctor, my staff tells me it is Vidale. Is that correct?
    Dr. Vidale. Vidale.
    Senator Cantwell. Vidale, okay, thank you. Thank you so 
much for being here and for your work at the University of 
Washington.

 STATEMENT OF DR. JOHN VIDALE, WASHINGTON STATE SEISMOLOGIST, 
AND DIRECTOR, PACIFIC NORTHWEST SEISMIC NETWORK, UNIVERSITY OF 
                           WASHINGTON

    Dr. Vidale. They usually mispronounce, so that's the norm.
    [Laughter.]
    Dr. Vidale. Good morning, Chair Murkowski, Ranking Member 
Cantwell and members of the Committee. Thank you for the 
opportunity to testify about the FY'17 budget and ongoing 
efforts of the USGS. I'm John Vidale, Director of the Pacific 
Northwest Seismic Network at the University of Washington. I'm 
privileged to have worked closely with USGS for the last decade 
to protect the public from earthquake hazards, so that's what 
I'll mainly talk about.
    In my oral remarks I'll focus on new methods to reduce the 
risk from large earthquakes. USGS also has important 
initiatives to seismically monitor the Central and Eastern U.S. 
and to maintain the global seismic network, and I don't mean to 
argue for prioritization among these projects.
    A recent article in the New Yorker captured public 
attention with the nightmare scenario of an impending magnitude 
nine earthquake on the Pacific Northwest Coast which has 
worried people across the entire nation. It last struck in the 
year 1700 in the Cascadia fault and is now locked and loaded 
again. When it comes, the strongly shaken region will extend 
from Northern California, up the coast to Canada including the 
entire coastlines of Oregon and Washington. Coastal Alaska 
faces a similar threat.
    We know what earthquakes of this size can do. In 2011 the 
M9 Tohoku earthquake in Japan shook communities for four 
minutes and triggered a devastating tsunami. Through this 
example we've seen the level of destruction that could happen 
along the Pacific Northwest coast. Fortunately, we can act to 
protect lives and property now.
    I'll highlight two opportunities at the USGS that can 
reduce devastation from quakes of all sizes, earthquake early 
warning and seafloor monitoring, and discuss why subduction 
zone earthquakes, the gravest type, need a special focus.
    The newest advance in USGS earthquake risk mitigation 
development of shake alert earthquake early warning, we use 
seismometers and GPS to recognize an earthquake within seconds 
of its occurrence and then broadcast a warning of seconds to 
minutes to vulnerable communities telling people how strong 
shaking will be and when it will come.
    Earthquake early warning reduces earthquake risks and 
public fears in several ways. In terms of life safety, simply 
giving people such as schoolchildren a few extra seconds to 
drop, cover and hold has great benefit. ShakeAlert can also 
stop trains, call off airplane takeoffs and landings, halt 
surgeries and much more. In the private sector companies can 
reduce losses by battening down factories, racing computer 
operators and shutting off pipelines. Emergency responders can 
jump-start emergency operations while communications still 
work.
    The implementation plan for earthquake early warning for 
Washington, Oregon and California costs $16 million per year 
for equipment and operations. This state-of-the-art system is 
entering the public testing phase. We're halfway there. The 
USGS funding level for earthquake early warning from Congress 
was $8 million for Fiscal Year '16 and the Administration has 
requested the same in Fiscal Year '17 budget thanks to strong 
public and private support for universities, coordination from 
the USGS, major commitments from the Moore Foundation and 
corporations, as well as strong support from Congress. We're 
very grateful for leadership in supporting ShakeAlert from West 
Coast Congressional delegations. Extension to other states 
simply requires careful study followed by judicious expansion 
of ShakeAlert operations.
    The second opportunity I'll discuss is the placement of 
earthquake-sensing instruments on the seafloor exactly as Japan 
has already done to protect their coastal communities. Seafloor 
sensors would yield more accurate and rapid warnings of shaking 
and tsunamis, providing more critical time for people to take 
life-protecting action. Even more critically, offshore 
instruments would watch for subtle tectonic unrest which 
preceded several recent subduction zone earthquakes and would 
accelerate scientific understanding of the associated risks. 
There's a high level of interest in exploring subduction zone 
science, both within the academic community and the USGS which 
goes beyond offshore instrumentation.
    In summary, the great earthquakes in the last decade in 
Japan and Sumatra, which cost hundreds of thousands of lives 
and hundreds of billions of dollars, are forerunners of the 
inevitable devastating earthquakes in the U.S. To prepare, we 
should complete both an Earthquake Early Warning System and 
emplace seafloor monitoring. The ShakeAlert Warning System is 
well on its way to help protect lives and property, and I urge 
that it be completed quickly and fully for Washington, Oregon 
and California and evaluated for other vulnerable regions.
    Thank you again for allowing me to testify, and I look 
forward to your questions.
    [The prepared statement of Dr. Vidale follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Senator Cantwell. Thank you to all the witnesses for your 
testimony.
    Thank you, Dr. Vidale. And as I said, thank you for your 
advocacy for the State of Washington's perspective. I cannot 
tell you how vital we think this science is and how much it is 
going to help in saving lives and property. So thank you for 
what you do.
    Dr. Vidale, I would like to drill down on what you are 
saying about the early warning system, particularly as it 
relates to seafloor monitoring and the development of the 
system. Where are we exactly? And where are we as it relates to 
the budget and the shortfall that we need to cover these 
activities?
    Dr. Vidale. Right. The early warning system we've designed, 
the implementation plan from the Survey covers the system on 
land, and it should perform quite well.
    We have half the funding in hand. With the $16 million a 
year, we could build it out over the next few years so it's 
operational according to that implementation plan. With extra 
funds up front, and the figure $38 million has been mentioned, 
we could build it a few years faster. California is looking to 
raise $20 million this year to jump-start that capability.
    The offshore aspect is something that's longer-term. We're 
still studying the different ways it could be done with a cable 
or with gliders or with OBSs for things that aren't so real 
time, but that's a long-term goal. It's not something we'll 
build in the next year or two.
    Senator Cantwell. But should we think about that seafloor-
based monitoring as an extension of the land-based system in 
giving us more time? My understanding is that Tokyo residents 
had about 80 seconds of warning. We're talking about something 
more than that, is that right?
    Dr. Vidale. Well it's complicated because it will depend on 
exactly where the earthquake starts. And you know, they can 
start right under the cities for earthquakes in the crust or 
they could start on the far edge of the zone that's going to 
rupture. So in the Pacific Northwest the best case is if, for 
us, the earthquake starts in California and then we can see it 
coming for three or four minutes. If it starts right next to 
us, then we'd have less warning time.
    If we have instruments offshore we gain some warning time, 
but the more important monitoring would be to see the kind of 
anomalous activity that sometimes means the risk is elevated. 
For example, before that disastrous Japanese earthquake there 
were several days of slow slip, you know, a technical term, 
that could have alerted people that the risk was higher. It 
wouldn't have said there was an earthquake coming, but they 
would have been watching more closely. So there are a number of 
things we don't understand that we're just blind to now without 
instruments on the seafloor reporting back in real time.
    Senator Cantwell. My understanding is, just because we 
visited the NOAA center, that you could take a device like this 
today and the network information is available. I could 
download an app, and I could get this information. So this part 
of the delivery system is here.
    Dr. Vidale. Oh yeah, the system----
    Senator Cantwell. So what is not----
    Dr. Vidale. The system is complete. I mean I have an app on 
my phone too, which, when they update it next week, will give 
me the warning that we're trying to produce but it will be 
slower than it should produce at the full system. It won't be 
as reliable or as accurate. So, you know, we could take halfway 
measures now.
    Senator Cantwell. Right.
    My point is what we are getting out of the next development 
is the fact that we are pushing out our systems to get the 
information sooner.
    You are indicating that the seafloor indications are--how 
much more time is that giving us, I guess, is the question?
    Dr. Vidale. Yeah and that's a great question.
    Now it only brings a few tens of seconds so it's the waves 
that are generated offshore coming to the shore fairly quickly. 
So the gain in the early warning is fairly modest. I think that 
the bigger reason for the seafloor is to understand the risk 
better and to see the signs of unrest that indicate changing 
levels of danger. And so this is something, it's a long-term 
goal and something we'll need to study to figure out the best 
approach.
    Senator Cantwell. Well I just want to bring up our two 
former colleagues, the Senator from Alaska and the Senator from 
Hawaii.
    The Chairman [presiding]. Stevens and Inouye?
    Senator Cantwell. Yes, Senators Stevens and Inouye.
    They were very involved in the development of this system. 
I remember one incident in Hawaii when people got the warning 
and then it turned out the tsunami risk was not as great.
    My point is that what you are saying today is that what you 
would be getting from the seafloor monitoring is a better 
understanding of how big the risk might be. So to better 
prepare, is that what you are saying?
    Dr. Vidale. That's right. And also the early warning 
systems are just now emerging with the tsunami warning systems 
because they give a faster warning of the earthquakes than the 
tsunami warning system currently does. And if we were to put 
offshore instruments we'd be directly measuring the waves, not 
just the ground shift which is a much less accurate way to 
predict the waves. So there are a number of benefits we'd have 
from seafloor instruments for tsunami warnings as well as a 
warning of the shaking.
    Senator Cantwell. So you are requesting an extra $1.7 
million for warning capabilities on earthquakes on the West 
Coast.
    Dr. Vidale. 1.7. We're talking about, I guess, $16 million 
a year for the West Coast early warning system of which we 
currently have eight. So we're, kind of, short $8 million a 
year to be building the system on the West Coast.
    Senator Cantwell. Thank you.
    Dr. Vidale. Yeah.
    Senator Cantwell. Thank you, Dr. Vidale.
    The Chairman. Thank you.
    Gentlemen, I apologize that I was not able to hear the 
testimony from the other three of you before I had to scoot 
out, but I am glad that we are back and able to ask some 
questions. I have read your testimonies.
    I want to continue the discussion about the geologic 
hazards. It is one thing to have the early warning, but we are 
also better armed if we have done the mapping.
    Deputy Commissioner Fogels, you mentioned that we have 
mapped 17 percent of the geologic hazards in the State of 
Alaska. Senator Cantwell has mentioned the need to knit 
together all of this information so that within our communities 
we are better prepared, better able to respond.
    If we have not been able to do an adequate job in mapping, 
whether it is the hazards around our communities, our 
infrastructure corridors, how do we get to what Senator 
Cantwell is saying, that level of preparedness and what our 
communities can do?
    So the question, and I'll direct this to you, to start, Mr. 
Fogels. We need to step it up in order to be able to be more 
prepared, but you have to start with some basic mapping that is 
accurate. Am I thinking that somehow or other we can jump over 
this step?
    Mr. Fogels. Senator, you're absolutely right. We do need to 
step it up as far as our mapping, and I touched on that in my 
testimony. I think it's worth emphasizing that a couple times 
in my testimony I mentioned the Earthscope project.
    The Chairman. Right.
    Mr. Fogels. In Alaska, through a National Science 
Foundation (NSF) grant, we're in the process of installing 
about 261 sensors throughout the state. I mean, those are going 
to be fantastic for our state and for the rest of the nation to 
provide real time data.
    And so, our concern is to make sure that once those things 
are in, at some point, some select few of those get to be 
maintained and integrated with our own earthquake systems. I 
think that's critical not only for the geologic hazards, but as 
I mentioned, those can provide a real boost to our geodetic 
control which lets us actually make sure that our data is 
positioned properly on the planet surface and that's----
    The Chairman. Well, let me ask further to that and I will 
ask you, Dr. McCoy, to weigh in as well because when we had the 
Secretary, I think it was when Secretary Ventura was in front 
of us and we were asking this question about, is there some 
discussion going on about how the State of Alaska can continue 
what Earthscope has put in place?
    I mean our state is not doing well financially right now. 
You certainly know it at the University level. But what happens 
if we get to that situation where we do not have the federal 
funding to pay for the operation and maintenance of the 
network, and we have not been able to work out an agreement? 
Does that just move us backward in terms of our ability to have 
any kind of an early warning system, to have the level of 
preparedness that we would hope for around the state?
    I do not want to talk about worst case scenario, but I need 
to understand what that does to us as a state if we are not 
able to continue the benefits that we have seen from this 
Earthscope project.
    Dr. McCoy?
    Dr. McCoy. Yes, the Alaska Volcano Observatory and Alaska's 
Earthquake Center have deployed sensors all along the Aleutians 
and over a big chunk of Alaska. Of the 52 active volcanoes I 
mentioned, we can only monitor, directly, 26 of them. We 
monitor the others using satellite data or infrasound remotely.
    The seismicity has been changing in Alaska. We've had 
earthquakes near Kotzebue that weren't there before, so we've 
had to deploy temporary sensors.
    The Earthscope Array, these 260 something sensors, is 
extraordinary. This is going to really improve--it's a diverse 
set of instruments, seismic, GPS. It's a $70 million effort 
that's a fantastic enhancement to our capabilities.
    The State Seismologist who is in the Geophysical Institute, 
he's already working to integrate that data as well as he 
already integrates Department of Defense (DoD) seismic data 
into this overall----
    The Chairman. Does DoD maintain different instrumentation 
around the state separate from----
    Dr. McCoy. There's a few seismic sites that are used for 
nuclear treaty verification. And we partner closely, so does 
USGS, and we work closely with those, with the DoD on that.
    So all of a sudden, for a short time, a couple years, two 
or three years, we're going to have an extraordinary map of 
seismicity in Alaska. But the bad news is if we don't do 
anything at the end of that two years, NSF will go back and 
take all this back out again.
    So we're in active discussions as to how to keep, as Mr. 
Fogels said, just a subset, just a few of those at key 
locations that are hard to get to and we're looking for funding 
to operate them and maintain them. Maintaining them is 
important. We spend most of our summer flying around Alaska 
with USGS help to maintain, replace batteries, and upgrade 
systems and maintain.
    So we'll degrade back to where we were in the past, but for 
a short time it'll be really amazing. If we can keep some of 
those then we've made a definite improvement for the State of 
Alaska.
    The Chairman. So after two years where do these go? Where 
is USGS going to take these geodetic stations?
    Dr. McCoy. Well they're required to go back. Dig them out 
of the ground and return them.
    The Chairman. Return them to where?
    Dr. McCoy. Storage.
    The Chairman. Return them to storage.
    Dr. McCoy. Or----
    The Chairman. Are they going to be used elsewhere?
    Dr. McCoy. I doubt it.
    The Chairman. What a horrible waste when you could be 
advancing the research, science and the data and allowing us to 
be so much smarter. We are required to take them out of the 
ground, and then I was thinking somebody else was going to be 
able to gain benefit.
    Dr. McCoy. Well I'm sure somebody else might, someplace 
else but Alaska----
    The Chairman. The person who has the storage unit that gets 
the rental from them. I don't know.
    Dr. McCoy. So I'm not sure exactly what they have planned, 
but we're working hard with our partners and the state and with 
USGS to figure out a way to keep a select subset of those.
    The Chairman. Okay, know that we want to be working with 
you.
    Dr. McCoy. Terrific.
    The Chairman. It just seems to me that if NSF has made this 
investment, this is an investment in data and if the state can 
figure out a way to do the operation and maintenance end of it, 
NSF is going to continue to gain benefit. Obviously the state 
will as well. So this appears to me to be one of those no-
brainers that we need to ensure we don't allow a lapsing.
    Dr. McCoy. Absolutely. In the lower 48 this program has 
already been completed. This is the final stage in Alaska. And 
in most states, especially in the states that are seismically 
active, there were some ways found to keep many of those 
sensors in place. So now we're working on trying to find ways 
to keep a subset in place in Alaska.
    The Chairman. Okay. Well we are going to work with you.
    I will turn to Senator Cantwell for additional questions.
    Senator Cantwell. Thank you.
    I want to go back to you, Dr. Vidale.
    We were talking with Director Kimball about Mount Rainier 
and installing lahar equipment. I know the UDub is working with 
Tacoma and the USGS to help improve that system. What do you 
think the timeline is for updating it and what do we need to do 
to make sure that we have safe evacuation routes?
    Dr. Vidale. Well, there is a plan to do the lahar 
monitoring on Rainier. My impression is it's not, the funding 
is not there yet. I mean, they're upgrading the Hood Stations 
and the Glacier Peak Stations because they have that in their 
existing budget. But there isn't funding at the moment to do 
the lahar----
    Senator Cantwell. Well my understanding is that Glacier 
Peak has next to nothing today.
    Dr. Vidale. Yes, it has almost nothing. That's correct.
    Senator Cantwell. But we have a volcano in our state that 
has----
    Dr. Vidale. Yeah, there are several volcanoes that are 
under-
covered. There are hazardous volcanoes and two or three of them 
are well-covered and the rest are pretty sparse.
    Senator Cantwell. Okay, so back to what do we need to do 
then to improve the system for Tacoma and Mount Rainier?
    Dr. Vidale. Well I think for Rainier, my impression was it 
was on the order of a $1 million budget and they just don't 
have the funding yet. And so if they have funding they can do 
the plan. Until then, they'll be waiting.
    Senator Cantwell. Okay. We will definitely think that is a 
high priority here.
    What about the early warning tsunami systems as it relates 
to areas of our state like Long Beach? We really need to be 
building vertical structures, is that correct? And what is the 
science telling us about these vertical structures and what we 
need to do?
    Dr. Vidale. Well there's continuing study of just, you 
know, how high we have to evacuate and how often. And next we 
have an M9 project at the University of Washington trying to 
probabilistically estimate what people have to watch out for. 
But right now I think they're building the first vertical 
evacuation tower on the coast of Washington at a high school. 
It's just a challenge to find the funding to build these 
evacuation structures. So we know it's a problem. We know there 
are people who are going to be stuck, but these buildings cost 
a lot of money and the state is working on it.
    Senator Cantwell. Right.
    And what do we do to make sure that we are actually getting 
an accurate, well, I think the community wants to have a plan. 
So just as you said, with the cost of the facility we are 
making them make certain choices. But in reality the impact is 
something that is going to be more than just one wave, correct?
    Dr. Vidale. Right.
    Senator Cantwell. And the devastation that could be left 
behind could leave them pretty isolated for a while. So you 
really need a vertical structure that is more than what the New 
Orleans Dome was, correct? It needs to be a better structure 
for housing and facilitating?
    Dr. Vidale. Yes.
    Senator Cantwell. Several days of a population, is that 
correct?
    Dr. Vidale. It's challenging to make the appropriate 
structures. And Japan, sort of, reset our expectations for the 
height of the wave that could come in. The wave in Japan was 30 
or 40 meters in places, which was twice as much, well, three 
times as much as the Japanese had planned for. So suddenly 
these structures are more challenging to build.
    So we, sort of, know what we need to build to be safe, but 
again, it's a matter of finding the resources and getting the 
community will to push it at all levels to make it happen.
    Senator Cantwell. Again, I don't know if it's so much the 
community. I just feel like we are planning for Cascadia by 
Committee, almost, and I feel like we need a General. I feel 
like we need an overseer of this because, again, you are doing 
great work. Scientists at a university working with local 
mayors and county commissioners in a county that has very 
little resources to plan for it. And yet, that is the front 
line of our response to something we know is going to happen. 
It is just a matter of when it is going to happen.
    So I think, again, we were just down there for a community 
meeting. The community is doing great work, but again, these 
are big questions.
    Dr. Vidale. Yes, they're difficult. And you know, the state 
budget in Washington, as you'd know better than I do, is not 
that easy to find large sums of money to fix these problems.
    Senator Cantwell. But this will be a federal disaster. If 
you are going to affect the economies of Washington, Oregon, 
California and Alaska, it is going to have a devastating impact 
on the national economy as well.
    I think this is a lot of information today, again, about 
making sure we get this, Madam Chair, right on the mapping and 
the early warning systems and the tsunami systems and then 
making sure that we continue to ask the questions about how we 
are going to move all of this together.
    I don't know if you have more questions, so I will pass it 
back to you.
    The Chairman. Thank you, Senator Cantwell.
    I am just reminded this was some years ago that I had been 
advocating for funding for the volcano monitoring system, and I 
was written up in one of the Hill publications as one of those, 
oh my gosh, can you believe that there is a Senator who wants 
to monitor volcanoes? I was really mocked.
    And then, I cannot pronounce the name of the volcano in 
Iceland that blew and literally shut down Europe, and all of 
sudden there was all this scrambling around. What are we doing 
to monitor volcanoes? And then I was apparently brilliant at 
that point in time.
    [Laughter.]
    The Chairman. But it reminds me that unfortunately so much 
of what we are talking about here you cannot get the 
appropriate attention that we need to it until there is that 
natural disaster, until you have that big earthquake, until you 
have the volcano that shuts down air traffic--that is not how 
we should be operating. These are ways to help us with a little 
bit of an insurance policy.
    I want to ask a couple more questions here and then we can 
wrap up, because I think there has been good discussion, 
certainly about some of the hazard mapping, and what more we 
can do when it comes to early warning.
    Mr. Fogels, I wanted to ask one quick question about land 
conveyance and the issue in the state about BLM wanting to move 
on the state land conveyances but using a different methodology 
that the state has not yet signed off on regarding the GPS 
calibration stations. The fact that, quite honestly, we just do 
not have enough of these, so called, continuously operating 
reference sites, and the fact that when you do not have them 
you cannot get the accurate GPS coordinates.
    [The information referred to follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     
    The Chairman. I know that what we are trying to do in the 
state is to get an independent peer review of the accuracy of 
the GPS-based land conveyances that might be finished. Can you 
just, real quickly, speak to the state's concern about the 
conveyance, this new proposal, that is coming out of BLM and 
the concern that we have with the impact to the state patents?
    Mr. Fogels. Yes, Senator, I can certainly do that.
    As the Bureau of Land Management is in the process of 
conveying to the State of Alaska its remaining land 
entitlement, you know, we have a 105-million-acre land 
entitlement. We have about 100 million already in hand, but 
only about half of that has actually been patented to us. In 
order to patent that land, it has to be surveyed and then 
patented to us.
    We can use the rest of the land as if we owned it right 
now, so it's really not that big of an issue in the immediate 
term. But at some point in the future this land has to be 
surveyed and patented. Right now the survey standards prescribe 
physical monumentation in the ground, you know, every so often 
throughout a memorandum agreement that we've had with the BLM 
and we believe is rooted in the Alaska Statehood Act.
    The Bureau of Land Management wants to reduce its surveying 
costs by reducing the spacing of the physical monumentation and 
relying more on GPS coordinates. And I think we all agree, at 
some point in the future, it's probably silly to run around 
hammering in physical monumentation. At some point in the 
future, when we have the technology, we can replace that, but 
we do not believe we're there yet.
    The ground controls I mentioned in my testimony in Alaska 
are poor, and that's what determines how accurately you can 
pinpoint those survey monuments with your GPS. And as I 
mentioned, not only are we inadequate in our coverage of these 
continuously operating reference stations, but we're in danger 
of losing almost half of them once the Earthscope stations 
disappear. So we'll be backsliding; we'll go even further back.
    Before we really are convinced of the new technology that 
BLM will use for patenting our land, we'd like to see it. We're 
not convinced yet. We want to see better ground control in 
Alaska.
    The Chairman. Yet one more example of why this Earthscope 
project, or the instrumentation there, is so important.
    Back to mapping and then I want to direct a question to 
you, Dr. Leahy.
    In your testimony, Mr. Fogels, you talk about the mineral 
potential in Alaska and the fact that we have only got about 17 
percent of the state that has been mapped, geologically, much 
less with other mapping techniques whether it is airborne, 
geophysical survey. Why is it so important that we get this 
accurate mapping when it comes to our minerals?
    Mr. Fogels. Well Senator, there are a number of reasons.
    I think one, just the geologic mapping, is a foundational 
data set that describes the Earth. And so, all of the geologic 
hazards that we've been discussing here in this Committee, I 
mean, if you don't have a good geologic map of your state, 
you're just behind the curve when you're trying to figure out 
where your hazards are or what their potentials are. So the 
geologic mapping is important for hazards too and flooding and 
tsunami inundation mapping.
    But as far as resource development, I think Director 
Kimball said, part of the USGS' mission is to provide for our 
mineral and energy security in the future. Alaska is vastly 
underexplored.
    We have much more mineral potential to offer the nation, we 
have much more oil and gas potential and energy potential to 
offer the nation, and this mapping is critical to find that. We 
don't even know where a lot of this is yet.
    Some examples of where we've used state and USGS mapping, 
the new, the recent discovery by Repsol and Armstrong on the 
North Slope that could produce up to 200,000 barrels of 
additional oil for TAPS a day, potentially. I mean, that was 
assisted by mapping, through the STATEMAP program.
    The Pogo Gold project that's now employing 300 people was 
assisted in its discovery with this mapping whether it's 
airborne, geophysical or state mapping, the Livengood projects.
    So we have a lot of success stories in Alaska, and we 
believe we have a lot more success stories in the future with 
better mapping.
    The Chairman. I would agree.
    Let me wrap this panel up with a question to you, Dr. 
Leahy. In your written testimony that I reviewed you speak 
about four main goals for USGS in mineral resources led with 
the need to assess the nature and the distribution of domestic 
mineral resources.
    As you know I mentioned that to Director Kimball and we 
have a critical minerals bill that I have introduced. It is 
something I feel pretty strongly about.
    In your observation, can the USGS be doing better when it 
comes to its assessment of minerals? And what would you 
recommend in terms of steps that can be done at the federal 
level to really strengthen our nation's mineral security?
    Dr. Leahy. Well I think, you know, all minerals occur in 
deposits, different types of deposits. The way you determine 
where those deposits are is through geologic mapping. If there 
is no map at the appropriate scale, it's very difficult to, 
kind of, guess that there might be a material that you're 
interested in. So geologic mapping is absolutely critical.
    Now the U.S. has been playing catch up in terms of, kind 
of, filling in the geologic map of the country. It's an 
enormous effort. Tremendous progress has been made in the last 
20 years but there's a great deal to be done. To me, that's a 
very high priority for the USGS, and obviously a state 
partnership is a vehicle to get it done.
    Now can it happen immediately? That's impossible. We don't 
have the workforce to be able to do that. But certainly it 
could be accelerated and particularly in Alaska, but elsewhere 
as well.
    The other thing I want to say is when you talk about 
minerals I think you have to maintain a global view. And I 
think you've got to be somewhat strategic in that global view 
in terms of what you're looking at.
    For example, I think there are special studies and USGS is 
starting to do some of these. One that comes to mind is the 
rare earths or the critical minerals that you mentioned. But 
also there are geographic areas that are important for us to 
know about because they could be potential supplies or 
producers of supplies we need in order to run our manufacturing 
or whatever. There isn't one that immediately jumps to mind. 
It's kind of a question mark globally. It would be good to be 
able to fill in that question mark.
    I think we need to, you know, the USGS has a rather iconic 
graph they put out every year that shows the U.S. dependence on 
foreign production of minerals. The one thing I have not seen 
is how of those, what are the trends in those graphs that are 
produced on an annual basis? Which ones are increasing? Which 
ones are declining in terms of our dependence?
    If you look at it in that context, I think you can start 
doing some pretty educated forecasting in terms of where are 
there going to be challenges for domestic supplies in the 
future.
    In my mind, that's an analysis that should be done, and we 
should have a handle on forecasting where we see mineral 
disruptions in the future. Not that the minerals won't be there 
geologically, let me make that perfectly clear, but where the 
supply could be disrupted because of world events.
    I think that the USGS is ideally situated, which it isn't 
in energy but it is in minerals, by having both the demand and 
the production supply or, the production side as well as the 
supply side. They do assessments of resources globally, so they 
know how much is available in terms of reserve or the resource 
base. But they also look at production statistics globally. 
Frankly, that's a big advantage in terms of doing some very 
innovative science, kind of, looking at both of those sides of 
the equation. That, I don't believe, is being done, or it's 
only being done in a few cases in a pilot area. So those are 
some of the things I would do.
    The Chairman. Yes.
    Dr. Leahy. The other thing, and I'll just close with this 
comment, is there was some discussion of the mineral cycle. I 
think Director Kimball mentioned the mineral life cycle, she 
called it. I think there are some things that could be done in 
terms of greater collaboration if we want to look at minerals 
as a cycle, we really need to look at all the components, the 
discovery, the development, the production, the disposal, the 
reuse, the substitution and so forth.
    Other federal agencies have responsibilities. DOE comes to 
mind in terms of doing substitution and so forth. I don't 
believe the collaboration and looking at the minerals cycle as 
an entity with various components within the Federal Government 
contributed to it is very strong, and I think that could be 
strengthened.
    The Chairman. Very good.
    Dr. Leahy. Just a few thoughts.
    The Chairman. Very helpful, I appreciate that.
    Dr. Leahy. Thank you.
    The Chairman. I have to ask one last question. Hopefully 
this will be very quick. Dr. McCoy, in your comments you noted 
the need for a new space weather strategy and talk about the 
USGS geomagnetism program. Do you see a role for the Arctic of 
Alaska in this particular effort? It seems to me it is 
perfectly poised for it. But can you inform me just a little 
bit?
    Dr. McCoy. Sure.
    The Chairman. Very briefly.
    Dr. McCoy. Sure.
    Just off campus, we maintain the College International 
Geophysical Observatory.
    The Chairman. Right.
    Dr. McCoy. It was built by USGS, but we operate it and we 
monitor geomagnetic activity. Large solar activity, Chrono mass 
ejections, can create ground induced currents, geomagnetically 
induced currents, that can take down power grids. It's a major 
concern.
    The Administration has had a space weather initiative the 
last couple years as a new strategy that involves enhancing 
USGS funding in this area. So we're excited about that.
    And--but this is--this could be an extreme hazard. In fact, 
I think Lloyd's of London has estimated a potential up to $5 
trillion, globally, from a major space weather event. So USGS, 
it's a, they're a small part of the overall responsibility in 
the nation, but they're monitoring ground currents and 
measuring ground currents.
    The Chairman. Can we predict that? Is that where you are 
going with this project, and this proposal, is the ability to 
predict when that might happen, or if?
    Dr. McCoy. There are several aspects. Some of it is 
prediction, looking at the sun, but also understanding the 
ground and the way currents are produced and having enough 
warning to provide, to do mitigation so we don't take out power 
grids.
    The Chairman. Right.
    Dr. McCoy. Like what happened back in '89 in Quebec.
    The Chairman. Right.
    Yet another hazard. Add it to our list.
    Thank you, gentlemen, for your testimony and for all that 
you are doing to help us be better prepared, particularly when 
Mother Nature does some crazy stuff.
    Senator Cantwell.
    Senator Cantwell. Thank you, Madam Chair.
    I just wanted to add, you know, we were mentioning Senator 
Stevens in a way that my predecessors, Senators Magnus and then 
Jackson, actually through this Committee on Insular Affairs, 
extended our ability to conduct investigations on the Outer 
Continental Shelf and to the oceans that we need to be doing 
now.
    That was in 1961, and I am so glad that they did that. I 
think you and I are continuing to carry the torch for this, and 
I think today's hearing is all about how we need to make sure 
we are carrying the torch in the appropriations process.
    The Chairman. Yes.
    Senator Cantwell. And make sure that these gentlemen get 
the funding we need to protect the public and to continue to 
look at these issues.
    So I thank you for holding this important hearing that is 
very important to our region of the country. And thank you for 
your leadership, as you mentioned, on bringing up monitoring 
when people didn't quite understand the significance of it. So 
thank you for that.
    The Chairman. Yes, we do have a Natural Hazards Caucus. 
Apparently I am a co-chair and was with Senator Landrieu when 
she was here in the Senate--and this was shortly after Katrina. 
The caucus hasn't done much of late, and maybe it is time to 
revisit, at least from an educational perspective, what we 
might need to be doing. Anyway, I am just putting that out 
there.
    But thank you, we appreciate it and you all.
    [Whereupon, at 11:55 a.m. the hearing was adjourned.]



                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                      [all]
</pre></body></html>
